No.

20-5659

K
t

IN THE
SUPREME COURT OF THE UNITED STATES

GABRIEL M. ROBLES,
— PETITIONER

(Your Name)
ROBERT L. WILKIE > vs.
Secretary of Veterans Affairs,

— RESPONDENT(S)

Sfntteb !§>tates;Court of appeals
for the ifeberal Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITIONER'S RESUBMISSION

OF MOTION FOR RECONSIDERATION
GABRIEL M. ROBLES

(Your Name)
1243 SW Western Avenue, Apt. B-18

(Address)
Topeka, Kansas. 66604
(City, State, Zip Code)

(785) 224-8195
(Phone Number)

Received
NOV 2 4 2020

I

1'iULlUXl

J.Ui

RCUUnaiueiaLiun.

ilU .

<£. V — ~J \J

-*

TABLE OF CONTENTS
I.

Certification of Counsel
Motion for Reconsideration

pgs . 1-4.'

j,

Appendix A

„. Order ...

II.
III.

Appendix B 5 pages
Appendix C Sen. Grassley letter

4 pgs o

IV.

Appendix D (added 11/17/2020)

2 pgs.

V.

•o

No.

20-5659

IN THE
SUPREME COURT OF THE UNITED STATES
GABRIEL M. ROBLES,

— PETITIONER

(Your Name)
VS.

Robert L. Wilkie
Sec. of Veterans Affairs,

— RESPONDENT(S)

CERTIFICATION OF COUNSEL
(or of a party unrepresented by counsel)
NOW COMES the Petitioner named in the caption above, to
sware in the name of the Father, Son, and the Holy Spirit,
that the attached MOTION FOR RECONSIDERATION is hereby
RESUBMITTED (see: Appendix D) to the Court "in good faith
and not for delay."
THE PETITIONER FURTHER SAITH NOT.

On this

18th day of

November

, in the Year of

our LORD, 2020.

By
Gabriel M. Robles. pro se.
1243 SW Western Avenue,
Apt. B-18
Topeka, Kansas. 66604
(785)224-8195
I.

No.

20-5659

IN THE
SUPREME COURT OF THE UNITED STATES
GABRIEL M. ROBLES,

— PETITIONER

(Your Name)

VS.

Robert L. Wilkie
Sec. of Veterans Affairs,

— RESPONDENT(S)
MOTION FOR 3

reconsideration

NOW COMES the Petitioner Gabriel M. Robles, pro se and indigent,
on this 3rd day of November, in the Year of our LORD 2020, to
seek and Pray for RECONSIDERATION by at least 3 Justices of this
Court, of the ,5OrderB! issued in this matter October 19, 2020.
GROUNDS FOR RECONSIDERATION
I -) Racism and Tokenism:
In the recent Grand Jury hearing in Kentucky (State) by an
African-American Attorney General named Daniel Cameron, the
members of that Jury felt somewhat cheated out of being
allowed to consider more serious charges against white
\

police officers that killed an innocent African-American
woman tha

committed no crime. People of color are pretty

sure Mr. Cameron withheld evidence from the Grand Jury
simply because as a black man, no one would question his
integrity.

1.

Motion for Reconsideration; Case No. 20-5659

GROUNDS FOR RECONSIDERATION (pg. 2)
2„) The Petitioner in this matter is Mexican (born and raised
in Barstow, CaliforniaO and attempted to bring attention
to this Court this type of racism cover-up several times.
Two (2) instances stand out; In the first; Respondent
cited, the Veterans disability compensation is denied
because 88.. the result of the Veteran got non expert
opinion from somebody in the library...88.
In the second; Both lower courts agree; “'Robles does not
lack adequate alternative means to attain the desired
relief. . .18 Petitioner Robles then attempts to pursue
those “alternative means" with the respondent and is met
with phone tag calls and two (2) broken english voice-xnails that sound Patino. Those voicemails were left on
July 9 and July 12, 2020.
A subsequent letter to the Veterans Board of Appeals
that left those voicemails, was for some unknown reason
re-routed by a U.S. Postal employee. First letter was
sent August 18, 2020. The second letter was sent
September 25, 2020. No response from either letter.
3.) CONFLICIT OF INTEREST:
On October 20, 2020, the Petitioner inquired as to the
the status of his Writ. A female clerk stated this; "Your,
yeah, well the Informa Pauperis was denied back (word not
intelligible) come when (sic?) you filed several cases
before.,." Could the clerks have been alluding to my

2.

Motion for Reconsideration: Case No, 20-5659

GROUNDS FOR RECONSIDERATION (pg. 3)
3. ) CONFMCIT OF INTEREST s
...signature that is now different because of permanent
damage to the Petitioner’s right wrist?
An email dated May 10, 2014, to Chief Justice Roberts
wife accusing "the Clerk’s office of tampering and
conspiracy to conceal a default judgment against U.S.
Attorney Eric Holder & the U.S. government.88 ?
(Correction: Letter dated 5/10/14. Email dated 6/2/14.)
Robles v. Amarr Garage Door’s et al„, SC No. 12-10098
Phone call dated Feburary 4, 2015, with SCQTUS clerk
Michael Duggan explaining Rule 33.1 which was cited in
my Writ being denied. Mr. Duggan explained the clerk’s
office ’’thought Petitioner was a lawyer trying to avoid
paying filing fees.88 (Robles v. State Farm et al., SC
No. 12-9883.)
Appendix B, page 2, 23,24,25, and Page 3, 1-6, show how
Judge Kathryn H. Vratil ignored attorney’s wishes to
make a case against the Petitioner to "'go away." (USDC
Dist. of KS. Case No. 10-2310-KHV) On July 7, 2011, the
Petitioner was forced to attend a "Settlement Conference"
out of town to fire his attorney, scold 4 other lawyers,
and force the Magistrate to pay us so me and my wife
could be on our way. Judge Vratil later went on to rule
against the Petitioner in his medical malpractice case
against the Respondent in this current matter.
3.

Motion for Reconsideration: Case No. 20-5659
GROUNDS FOR RECONSIDERATION (pg. 4)
Appendix C is a copy of a letter dated April 13, 2015, by
Sen. Charles E. Grassley, Chairman of the U.S. Senate
Judiciary Committee, to U.S. Attorney General Eric Holder.
Sen. Grassley asked AG Holder to explain why "99.3% of all
names in the NICS "mental defective" category are reported
from the VA,„." (Veterans Administration)
The Petitioner submits the Respondent uses mental illness
to avoid medical care and disability benefits to Veterans
and their families in order to line the pockets of VA
employee’s.
IN CONCLUSION:
Based on the entire record since July 4, 2013, the Court
should Order that the Respondent find the Petitioner 100%
disabled under 38 U.S.C. 1151, Individual Unemployability,
and Housebound Status pay from 07/04/13 to 07/04/2016.
Page 2, paragraph 3, of this Motion shows the Respondent has NO
intention of following the lower courts order.

Date: November 3, 2020.

By
'Gabriel M. Robles, pro se
1243 SW Western Ave,. B-18
Topeka, Kansas. 66604
(785)224-8195

4.

I? A /

*■

Appendix A

ix„
APPENDIX A

Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
Scott S. Harris
Clerk of the Court
(202) 479-3011

October 19, 2020

Mr. Gabriel M. Robles
1243 SW Western Ave.
Apt. B-18
Topeka, KS 66604

Re;

Gabriel M. Robles
v. Robert Wilkie, Secretary of Veterans Affairs
No. 20-5659

Dear Mr. Robles:
The Court today entered the following order in the above-entitled case:
The motion of petitioner for leave to proceed in forma pauperis is
denied, and the petition for a writ of certiorari is dismissed. See Rule 39.8.

Sincerely,

Scott S. Harris, Clerk

7
10'11

■

*

Appendix B

in.
appendix b

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS

GABRIEL M. ROBLES,

)
)

Plaintiff,

) Civil Action
) Case No. 10-2310-KHV
)

vs .

) Kansas City, Kansas
)
)

CREDIT PROTECTION
ASSOCITION LP,

) June 2,

2011

Defendant.

STATUS CONFERENCE

Telephone conference

BEFORE THE HONORABLE KATHRYN H. VRATIL, Chief District
Judge
TRANSCRIPT ORDERED BY:
Mr. Robles
APPEARANCES:
For the Plaintiff:

For the Defendant:

Mr. J. Mark Meinhardt
Attorney at Law
4707 College Boulevard,
Leawood KS 66211

Ste 100

Ms. Desarae G. Harrah
Martin, Leigh, Laws & Fritzlen, PC
1044 MainStret, Ste 900
Kansas City, MO
64108
Mr. Justin M. Penn
Hinshaw & Culbertson LLP-Chicago
222 North LaSalle St, Ste 300
Chicago, IL
60601

Court Reporter:

Theresa E. Hallberg, RMR, CRR
511 US Courthouse
500 State Avenue
Kansas City, Kansas
66101
913-735-2314
OFFICIAL COURT REPORTER

2
1

(Whereupon,

the following proceedings

2

were had in chambers by way of telephone

3

conferencing:)

4

THE COURT:

Hello.

This is Judge

5

Vrati1 .

6

base with you.

7

are standing now on our trailing docket which

8

isn't really happy news,

9

there's a lot of time between now and July 5th,

Good morning.

I just wanted to touch

I guess Linda told you where you

probably,

for you,

10

s o a lot of things could change during the

11

interim.

12
13
14

Tell me,

but

is there anything in

particular that you all want to talk about?
MR.

PENN:

Judge,

I'll jump in.

This

15

is Justin Penn.

16

are just speaking briefly about potentially --

17

recently there was an order granting sanctions.

18

And one of the

19

would characterize it as small only by small in

20

terms of what you normally see,

21

offense to the plaintiff about that.

22

dollar amounts.

23

I represent the defendant.

this is a an FDCPA case,

We

I

so I mean no
I just mean

And the total amount at issue for the

24

plaintiff as

25

than the sanction amount he has been ordered to

far as statutory damages is less

OFFICIAL COURT REPORTER

3

1

pay .

2

that should go away.

3

counsel and I were just sort of -- I don't want

4

to speak for Mr. Meinhardt, but we were just

5

speaking about ways that that might be

6

accomplished.

7

To me, it seems like this is probably one
I hope it goes away.

And

So I'm hopeful that nobody will have to

8

show up on July 5th and that you can have the

9

other people duke it out for your docket.

10

THE COURT:

Okay.

Well, I noted in the

11

Pretrial Order that you had been to mediation

12

before Alan Galis at one point.

13

MR. PENN:

14

THE COURT:

Yes, that's right,

Judge.

Do you think it would be

15

helpful to go back to him or do you think this is

16

something that you can address on your own?

17

MR. PENN:

Speaking on behalf of the

18

defendant, I think it probably will be addressed

19

on our own if it can be addressed.

20

MR. MEINHARDT:

I would agree, Judge,

21

for the plaintiff.

22

something I think may work if we can get our

23

clients to agree to it.

24
25

THE COURT:
Well,

Mr. Penn's outline is

Okay.

All right,

then .

do I need to take more of your time then?

OFFICIAL COURT REPORTER

4

1

Is there anything else that you want to talk

2

about?

3
4

MR. MEINHARDT:
plaintiff,

Nothing for the

Judge.

5

MR.

PENN:

6

MS.

HARRAH:

7

THE COURT:

No,

Judge.

No,

Your Honor.

Okay.

Well,

I'm going to

8

make a note that this will probably settle,

9

keep us posted,

10

MR.

okay?

PENN:

We'll let you know as soon

11

a s we know and I'm hopeful we'll be able to

12

resolve it in the next eight to ten days.

13
14

but

THE COURT:

Okay.

That's super.

Thank

you .

15

MR. MEINHARDT:

16

MS.

HARRAH:

17

MR.

PENN:

18

*

*

*

Thank you,

Thank you,
Thank you,

*

*

*

★

Your Honor.

Your Honor.

Judge.
★

19
20
21
22
23
24
25

OFFICIAL COURT REPORTER

5

1

CERTIFICATE

2
3

»

4

I,

Theresa E.

Hallberg,

Certified

\

5

Shorthand Reporter,

6

foregoing transcript is a true and correct

7

transcript of my notes in said case to the best

8

of my knowledge and ability.

9

.SIGNED,

do hereby certify that the

OFFICIALLY SEALED, AND FILED

10

WITH THE CLERK OF THE UNITED STATES DISTRICT

11

COURT

12

this

day of

,

2011.

13
14
15
16

S/Theresa E.
Theresa E.

Hallberg
Hallberg,

17
18
19
20
21
22
23
24
25

OFFICIAL COURT REPORTER

RMR,CRR

IV.
appendix c

CHARLES 5 GRaSSLEV. IOWA. CHAIRMAN*
G3»M G. HATCH. UTAH
j£=? ScSSlOHS. ALABAMA
DNOScY 0 GRAHAM. SOLrt'H CAROLINA
}Qm CORKY;N. TEXAS
MICHAEL 3. LEE. UTAH
to crua. txas
.*£/* “LAKE. ARIZONA
QAVio vrrnER Louisiana
LVWiC A, PERDUA, GEORGIA
*‘I0M THUS, VORTh CAROl-NA

PATRICK.]. J.EAMV, VERMONT
OlANNE rtlMSTElN. CALIFORNIA
CHARLES E SCHUMER. NEW yqr*
RICHARD ■} DURBIN. ILLINOIS
SHELDON WHIT5HOUSE. RHODE Slang
AMY KIOBUCMAR. MINNESOTA
AL FR/WXEN. MINNESOTA
CHRISTOPHER A. COONS. DELAWARE
RICHARD SWMSNTHAL. CONNECRCtT

United .States Senate
COMMITTEE ON THE JUDICIARY
WASHINGTON. DC 20510-6275

Kuan L OfWrs. Chief Counsel ana SraR Qirvcuv
K?r, n,mc J.
OcmonnwcChief Cowt’j! and Sutft Qtr*cu'n

April 13,2015
VIA ELECTRONIC TRANSMISSION
The Honorable Eric H. Holder, Jr.
Attorney General
U.S. Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
Dear Attorney General Holder:
The National Instant Criminal Background Check System (NICS) is effectively a national
gun ban list and placement on the list precludes the ownership and possession of firearms.
According to the Congressional Research Service, as of June 1, 2012, 99.3% of all names
reported to the NICS list’s “mental defective” category were provided by the Veterans
Administration (VA) even though reporting requirements apply to all federal agencies.1 And that
percentage remained virtually unchanged as of April 2013.2 Given the numbers, it is essentia! to
ensure that the process by which the VA reports names to the Department of Justice (DOJ) for
placement on the NICS list recognizes and protects the fundamental nature of veterans’ rights
under the Second Amendment.
Questionable VA Standards
Specifically, once the VA determines that a veteran requires a fiduciary to administer
benefit payments, the VA reports that veteran to the gun ban list, consequently denying his or her
right to possess and own firearms. In the past, the VA has attempted to justify its actions by
relying on a single federal regulation, 38 C.F.R. § 3.353, which by its plain language grants
limited authority to determine incompetence, but only in the context of financial matters:

Names reported by the VA are not only veterans but also include non-veteran dependents. See also, William J. Krouse, Cong.
Research Serv., r42987, Gun Control Proposals in the 113th Congress: Universal Background Checks, Gun Trafficking, and
Military Style Firearms (2014).
2 Senate Report, 113-86, Veterans Second Amendment Protection Act (2013).

The Honorable Eric Holder
April 13, 2015
Page 2 of 4

Ratings agencies have sole authority to make official determinations of competency and
incompetency for purposes of: insurance and...disbursement of benefits.”3
Thus, the regulation’s core purpose applies to matters of competency for financial
purposes in order to appoint a fiduciary. This financial/fiduciary standard has been employed
since the regulation’s initial promulgation in the 1970s and it has nothing to do with regulating
firearms.4 Most importantly, in addition to the regulation itself, the federal statutory provision
granting the VA the authority to promulgate the regulation is squarely focused on financial
matters and was not designed to impose firearm restrictions.5
Varying Standards
In accordance with the Brady Handgun Violence Prevention Act, the Bureau of Alcohol,
Tobacco and Firearms (ATF) adopted a regulation that defined a different standard for firearm '
regulation than that imposed by the VA. The standard adopted is a “mental defective” standard
that, at its core, allows regulation only when someone is a danger to themselves and/or others.
The regulation itself even states that the standard does not include persons suffering from mental
illness but who are not a danger to themselves.6
The VA’s regulation appears to omit important findings and never reaches the question of
whether a veteran is a danger to himself, herself, or others. Thus, a VA determination that a
veteran is “incompetent” to manage finances is insufficient to conclude that the veteran is
“mentally defective” under the ATF’s standard that is codified in federal law.
Due Process Concerns
In addition, the procedural protections the VA affords to veterans are weak. First, the
standard of review is particularly low for a fundamental constitutional right: clear and
convincing.7 Hearsay is allowed.8 And, there are no significant checks and balances in place to
ensure that there is any evidence to conclude that a veteran is a risk to the public or themselves.
Of particular concern, although VA employees can personally meet with veterans and non3 38 C.F.R. §3.353
4 Determinations of Incompetency and Competency, 36 Fed. Reg. 19020, 19020 (Sept. 25, 1971) (codified at 38 C F R pt 3)
(“These are amendments to an existing regulation which states the criteria and procedures incidental to a Veterans Administration
determination that a beneficiary’s mental condition is such that a fiduciary should manage his affairs and safeguard his funds ”)
See also Determinations of Incompetency and Competency, 60 Fed. Reg. 55791, 55791 (Nov. 3, 1995) (codified at 38 C F R pt
3) (“This document amends the Department of Veterans Affairs (VA) adjudication regulations concerning determinations of
oTva benefits andVA0'"13^ cle“ that 0nl)' rating boards ^ authorized t0 make determinations of incompetency for purposes
38 U.S.C. § 501(a)(1) (4). The VA’s authority to promulgate regulations is limited to those which “establish the right to
benefits under such laws” and the “manner and form” of the process by which a veteran is to receive the benefits.
7 (95R-051P), 61 Fed. Reg. 47095, 47097 (Sept. 6, 1996) (codified at 27 C.F.R. § 478.11).
38 C.F.R. § 3.353(c)
procedural Due Process and Appellate Rights, 38 C.F.R § 3.103, provides substantive details about the hearing process and
specifically, in section (d) of the regulation, does not institute general federal evidentiary rules, but instead allows for admission
of any type of evidence, which reasonably includes hearsay.

The Honorable Eric Holder
April 13,2015
Page 3 of 4

veteran dependents who are receiving VA benefits, only when VA personnel meet with veterans
are they directed to consider whether competency is at issue.9 Thus, it appears that veterans are
immediately targeted by VA personnel upon initial contact.
Furthermore, when a veteran receives a letter stating that the VA believes he is unable to
manage his finances, that veteran now has the burden of proving that he is in fact competent to
manage his benefit payments and does not need a fiduciary. However, underlying the hearing is
a real possibility that the right to firearms will be infringed. Therefore, in light of the liberty and
property interests involved, placing the burden of proof on the veteran is highly suspect. Under
similar circumstances, the burden is generally on the government. Further, the hearing that takes
place is inside the VA administrative system and composed of VA employees rather than a
neutral decision maker.
Under the current practice, a VA finding that concludes that a veteran requires a fiduciary
to administer benefit payments effectively voids his Second Amendment rights—a consequence
which is wholly unrelated to and unsupported by the record developed in the VA process.
Accordingly, Congress needs to understand what justifies taking such action without more due
process protections for the veteran.
In order to more fully understand the interplay between the differing standards of the VA
and ATF, the procedural processes involved, and what effect it has on Second Amendment
rights, please answer the following:
1. Is the primary purpose of the NICS list to preclude firearm ownership and possession by
individuals who are a danger to themselves and/or others? If not, what is the primary
purpose of the NICS list?
2. Is the primary purpose of the VA’s reporting system to report the names of individuals
who are appointed a fiduciary?
3. Out of all names on the NICS list, what percentage of them have been referred by the
VA?
4. Do you believe that a veteran adjudicated as incompetent to manage finances and
appointed a fiduciary is likewise mentally defective under the ATF standard? If so, what
is the basis for that conclusion?

9 M21- 1MR Part 3, General Claims Process, U.S. DEP’T OF VETERANS AFFAIRS, Subpart IV-“Genera! Rating Process,”
Chapter 8 - “Competency, Due Process and Protected Ratings,” Section A Topic 2: “Considering Competency While Evaluating
Evidence.” Accessible at http://www.benefits.va.gov/WARMS/M21_lMR3.asp.

The Honorable Eric Holder
April 13, 2015
Page 4 of 4

5. Does the standard employed by the VA to report names to the DOJ for subsequent
placement on the NICS list comply with the protections of the Second Amendment? If so,
please explain how, in light of due process concerns described above.
6. Given that the VA adjudication process can result in a complete infringement of a
person’s fundamental Second Amendment right, do you believe that the use of the “clear
and convincing” evidentiary standard is proper? If so, why?
7. Is the DOJ satisfied that all names reported from the VA for placement on the NICS are,
in fact and in law, persons who should not own or possess a firearm because they are
dangers to themselves and/or others? If so, what evidence supports that conclusion?
8. Given that 99.3% of all names in the NICS “mental defective” category are reported from
the VA, has the DOJ reviewed the VA’s reporting standards and procedure? If so, please
provide a copy of the review that took place. If no review took place, please explain why
not.
9. What review process does DOJ have in place to ensure that names are properly on the
NICS list?
10. How many individuals have appealed their placement on the NICS list? How many
individuals were successful in their appeal?
11. In light of the fact that the Supreme Court has held the Second Amendment to be a
fundamental right, has the DOJ changed any processes and procedures relating to the
NICS system which were in existence prior to that holding?
12. Besides the VA, what other federal agencies have reported names to the NICS list since
2005? And how many names were reported by each agency since 2005?
Please number the responses according to their corresponding questions. Thank you in
advance for your cooperation with this request. Please respond no later than April 30, 2015. If
you have questions, contact Josh Flynn-Brown of my Committee staff at (202) 224-5225.
Sincerely,

Charles E. Grassley
Chairman
Committee on the Judiciary

a

.

4

V.

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
November 10, 2020

Gabriel M. Robles
1243 SW Western Ave.
Apt. B-18
Topeka, KS 66604
RE: Robles v. Wilkie, Sec. of Veterans Affairs
No: 20-5659
Dear Mr. Robles:
The petition for rehearing in the above-entitled case was postmarked November 3,
2020 and received November 9, 2020 and is herewith returned for failure to comply with
Rule 44 of the Rules of this Court. The petition must briefly and distinctly state its
grounds and must be accompanied by a certificate stating that the grounds are limited to
intervening circumstances of substantial or controlling effect or to other substantial
grounds not previously presented.
Please correct and resubmit as soon as possible. Unless the petition is submitted to
this Office in corrected form within 15 days of the date of this letter, the petition will not
be filed. Rule 44.6.
You may resubmit a single copy of your petition for rehearing instead of the original
with ten copies.

Sincerely,
Scott S. Harris, Clerk
By^
Michael Duggan
(202) 479-3025

Enclosures

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
August 29, 2014

Gabriel M. Robles
403 SW Huntoon Street
Apt. 7
Topeka, KS 66612
RE: Gabriel M. Robles et al. v. RMS Management Solutions, LLC, et al.
Dear Mr. Robles:
The above-entitled petition for a writ of certiorari was postmarked August 19, 2014
and received August 22, 2014. The papers are returned for the following reason(s):
The petition is out-of-time. The date of the lower court judgment or order denying a
timely petition for rehearing was May 2, 2014. Therefore, the petition was due on or
before July 31, 2014. Rules 13.1, 29.2 and 30.1. When the time to file a petition for a
writ of certiorari in a civil case (habeas action included) has expired, the Court no longer
has the power to review the petition.
The time for filing a petition for a writ of certiorari is not controlled by the date of the
issuance of the mandate. Rule 13.3.

Sincerely,
Scott S. Harris, Clerk
By:
Michael Duggan
(202) 479-3025

-

y

p" o

